OIG Investigative Reports, Los Angeles Man Indicted in Student Aid Scam
Skip to main contentAbout UsContact UsFAQs Language Assistance Englishespañol中文: 繁體版Việt-ngữ한국어TagalogРусский
U.S. Department of Education
Search for:
Toggle navigation
U.S. Department of Education
Student Loans
Grants
Laws
Data
About ED
OFFICES
Home
Reports & Resources
Programs/Initiatives
News
Office Contacts
Investigative Reports
PRESS RELEASE:
Central District of California, August 26, 2002
Debra W. Yang
United States Attorney
Central District of California
Thom Mrozek, Public Affairs Officer
(213)894-6947
thommrozek@usdoj.gov
Los Angeles Man Indicted in Student Aid Scam
A Los Angeles man who gave seminars at local African-American churches and allegedly instructed teenagers how to cheat the student aid system by falsely claiming to be orphans or wards of the court has been indicted on federal fraud charges.
Ozell Clifford Brazil, 52, of Los Angeles (just east of Inglewood), was charged yesterday in a 20-count indictment returned by a federal grand jury in Los Angeles. Brazil was charged with 13 counts of mail fraud and seven counts of student financial aid assistance fraud.
The indictment alleges that Brazil, through his Los Angeles Community Outreach Program, assisted college students and college applicants in filing fraudulent student aid forms with the United States Department of Education (DOE). Students and their families were charged from $75 to $250 to attend Brazil's seminars that he held at the First AME Church, Loyola Marymount University and other locations.
In order to receive federal financial aid, students and prospective students must submit a Free Application for Federal Student Aid (FAFSA) to the DOE, which then calculates the student's "expected family contribution" and prepares a Student Aid Report for colleges the student is considering attending.
In his scheme, which ran from at least September 1996 until February 2000, Brazil allegedly assisted students in filing FAFSAs that falsely claimed they were orphans or wards of the court. The fraudulent FAFSAs also concealed the true income and assets of the student's parents.
In addition to the instruction he provided in his seminars and during private meetings with students, Brazil allegedly wrote letters to college financial aid offices which falsely stated that particular students did not receive any financial support from their parents.
The students who took advantage of Brazil's fraudulent scheme attended a wide variety of public and private high schools throughout the Los Angeles area. Neither these high schools, nor the schools and churches where Brazil presented his seminars, are suspected of being involved in Brazil's scheme.
The indictment identifies 13 students, who fraudulently obtained approximately $250,000 in student aid. Those students will not face criminal prosecution, but the government is taking action to recover losses from these students and their families. In addition to paying restitution to the DOE, the students may be responsible for interest and civil penalties.
The investigation into Brazil is continuing, and the loss figure may rise significantly as more students and fraudulent aid applications are identified.
Brazil will be summoned to appear for an arraignment on the indictment on October 15.
An indictment contains allegations that a defendant has committed a crime. Every defendant is presumed innocent until and unless proven guilty beyond a reasonable doubt.
If he is convicted of all 20 counts in the indictment, Brazil faces a statutory maximum penalty of 100 years in federal prison.
This case is being investigated by the DOE's Office of Inspector General and the United States Postal Inspection Service.
CONTACT:	Assistant United States Attorney Paul Rochmes
(213) 894-2413
Release No. 02-124
Top
Printable view
Share this page
Last Modified: 02/28/2005
How Do I Find...
Student loans, forgiveness
College accreditation
No Child Left Behind
FERPA
2015 Budget Proposal
FAFSA
More >
Information About...
Transforming Teaching
Family and Community Engagement
Early Learning
K-12 Reforms
More >
Connect
Facebook
Twitter
YouTube
Email
RSS
Google+
More >
MISUSED
FOIA
OIG Fraud Hotline
Our mission is to promote student achievement and preparation for global competitiveness by fostering educational excellence and ensuring equal access.
Student Loans
Repaying Loans
Defaulted Loans
Loan Forgiveness
Loan Servicers
Grants & Programs
Apply for Pell Grants
Grants Forecast
Open Grant Competitions
Find Grant Programs by Eligibility
Laws & Guidance
No Child Left Behind
IDEA
Civil Rights
Significant Guidance
Data & Research
Education Statistics
Integrated Postsecondary Education Data System
Nation's Report Card
What Works Clearinghouse
About Us
Contact Us
Jobs
News
FAQs
Budget, Performance
Notices FOIAPrivacySecurityInformation qualityInspector GeneralWhitehouse.govUSA.govBenefits.govRegulations.gov